h

I

c

■

H
**

■

/ •CASE NO.

filed
AUG 3 I 2021
IN THE

EuPREEMEFCOIM^TL^f?-'K

SUPREME COURT OF THE UNITED STATES

CHRISTOPHER EVERSON-PETITIONER
VS
THERESA LANTZ,
CONNECTICUT COMMISSIONER OF CORRECTIONS, ET AL-RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI

CHRISTOPHER EVERSON
5214 TOWNWALK DRIVE
HAMDEN CONNECTICUT 06518
PHONE NUMBER; 203-848-4777
EMAIL; DANNYEVERSONOYMAIL.COM
PRO SE PETITIONER
AUGUST 30, 2021

PrECBVB^
SEP - 8 2021

r
*■ r'

i
QUESTION(S) PRESENTED
The Petitioner presents two questions:

Federal Rules of Civil Procedure Rule 60 (d) (1) Provides: "(d) Other powers to grant relief, This
rule does not limit a courts power to, (1) entertain an independent action to relieve a party
from a judgment, order or proceeding."; and In United States v. Beggerly, 524 U.S. 38 at 46
(1998) This Court said, "if rule 60 (b) is to be interpreted as a coherent whole, be reserved, "for
those cases of "injustices which" in certain instances, are deemed sufficiently gross to demand
a departure' from rigid adherence to the doctrine of "res judicata."

Question one is: In what instances or circumstances, if any, is the doctrine of "Res judicata",
conjoined with the "frivolous standard" of Federal Rules of Civil Procedure Rule 12 (b) (6)
applicable to an Independent Action filed by a litigant pursuant to Federal Rules of Civil
Procedure Rule 60 (d) (1)?

Question two is: If a litigant files an Independent Action pursuant to Federal Rules of Civil
Procedure Rule 60 (d) (1), should the Independent Action be correctly filed and docketed as a
hew action with a new docket number or should the Independent Action be correctly filed and
docketed under the prior or original action and with the prior and original docket number?

*•

■

■

>•

■* ’

ii
LIST OF PARTIES AND RELATED CASES
All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:
Christopher Everson- Petitioner
John Armstrong, former Connecticut Commissioner of Corrections -Respondent
Theresa Lantz, former Connecticut Commissioner of Corrections-Respondent
Connecticut Commissioner of Corrections, Respondent
Nelvin Levester, Respondent
Robert Carbone, Respondent
Related cases are as follows:
EVERSON V. LANTZ, Docket No. 3:04-cv-387 (RNC) Connecticut District Court, Judgment entered
February 4, 2009
EVERSON V. SEMPLE, Docket No. 3:16-cv-77 (RNC) Connecticut District Court, Judgment
entered September 7, 2016
EVERSON V. LANTZ, Docket No. 09-0903-cv Second Circuit Court of Appeals, Judgment entered
June 9, 2009

EVERSON V. SEMPLE, Docket No 16-3381 cv Second Circuit Court of Appeals, Judgment entered
on September 8, 2017

iii
EVERSON V. COMM'R OF CORRECTIONS, Docket No. 19-882 cv Second Circuit Court of Appeals,
Judgment entered August 6, 2019

EVERSON V. SEMPLE, Case No. 17-7650 cv Supreme Court of The United States, Cert denied on
February 4, 2020
EVERSON V. LANTZ, COMM'R OF CORRECTIONS, Docket No. 3:04cv 387 (RNC) Connecticut
District Court, Judgment denying "doc #'s 172 and 174" entered January 6, 2021
EVERSON V. LANTZ, COMM'R OF CORRECTIONS, Docket No. 21-228 cv Second Circuit Court of
Appeals, judgment entered July 14, 2021

iv
TABLE OF CONTENTS

Page(s)
Questions Presented

List of Parties and related cases

ii-iii

Table of Contents

iv-v

Index to appendices

vi-vii

Table of Authorities

viii, ix-x

Opinions Below

1

Jurisdiction

1

Statutory and Constitutional Provisions Involved

1-2

Statement of the Case
Reasons to Grant Petition

3-10

11-21

1. There are opposing and conflicting positions held within the courts, on applying the
doctrine of "res judicata" conjoined with frivolous standard of "lacks an arguable
basis in law or in facts" to an independent action in equity

11-13

2. Should an independent action in equity be correctly filed, as a motion to vacate
using the original docket number of the prior lawsuit or as a new action with a new
docket number?

11,12,

V

3. The three requirement approach vs the five element approach to deciding an
independent action in equity, "which is correct?"

15-18

4. Well recognized uncertainty in deciding an independent action in equity to avoid an
"unconscionable injustice" the concept is not clear

14,15

5. Making a determination whether or not litigants are "effectively being shut-out of
court'" in violation of the Substantive Right of Due Process under the 5th and 14th
Amendments

18-20

CONCLUSION

22

Certificate of Compliance

23

Certificate of Service

vi
INDEX TO APPENDICES
APPENDIX A: Order of the Second Circuit Court of Appeals dated April 27, 2021: Everson v.
Commissioner of Corrections Docket No. 21-17
APPENDIX B: Opinion of the United State District Court for Connecticut entered on December 1,
2020 "Doc #18" Granting defendants' motion to dismiss: Everson v. Lantz, Docket No. 3:20-cv885-(AVC)
APPENDIX C: Order of Second Circuit Court of Appeals dated June 2, 2021 denying motion for
Panel Reconsideration and Reconsideration En Banc: Everson v. Commissioner of Corrections,
Docket No. 21-17
APPENDIX D: Judgment Order in favor of defendants dated February 4, 2009 United States
District Court for Connecticut Everson v. Lantz Docket No 3:04-cv-387 RNC
APPENDIX E: Ruling and Order of summary judgment dated February 3, 2009 United States
District Court for Connecticut Everson v. Lantz Docket No. 3:04-cv-387 RNC
APPENDIX F: Ruling and Order of summary judgment dated September 30 2006 United States
District Court for Connecticut Everson v Lantz Docket No 3:04-cv-387 RNC
APPENDIX G: Order Second Circuit Court of Appeals default judgment Dated June 9 2009
Everson v. Commissioner of Correction Docket No. 09-0903-cv

vii
APPENDIX H: Order Second Circuit Court of Appeals denying Relief from Recall Mandate and
reopen case Dated August 12 2009 Everson v. Commissioner of Correction, Docket No. 09-0903cv
APPENDIX I: Summary Order and Opinion Second Circuit Court of Appeals dated September 8,
2017 Everson v. Armstrong, Commissioner of Corrections, Docket No. 16-3381
APPENDIX J: Judgment dated September 7, 2016 and Order with Opinion to approve and adopt
Recommended Ruling dated September 6, 2016 United States District Court for Connecticut
Everson v. Semple, Commissioner of Corrections, Docket No. 3:16 cv-77 RNC
APPENDIX K: Recommended Ruling of United States Magistrate Judge dated August 3, 2016
United States District Court for Connecticut Everson v. Semple, Commissioner of Corrections,
Docket No. 3:16-cv-77

vii

TABLE OF AUTHORITIES
page

CASES
Addington v. Farmer's Elevator Mut. Ins. Co., 650 F.2d 663 (5th Cir. 1981)

17

Asterbadi v. Leitess, 176 Fed. Appx. 426 (4th Cir. 2006)

16

AmBase Corp. v. City Investing Liquidating Trust, 326 F.3d 63 (2d Cir.2003)

14

Boddie v. Connecticut, 401 U.S. 371 (1971)

10,11,19

Boughner v. Secretary ofH.E.W. (CA, 3d 1978) 572 F.2d 976

20

Buckeye Cellulose Corp. v. Braggs Electric Construction Co., (CA8th 1975), 569 F.2d 1036

20

Campaniello Imports Ltd. v. Saporti Italia S.p.A., 117 F.3d 655 (1997)

14

Castillo v. Cook County Mail Room Dept., 990 F.2d 304 (7th Cir. 1993)

20-21

Christopher v. Harbury, 536 U.S. 403 (2002)
Clarke v. Burkle, 570 F.2d 824 (8th Cir. 1978)

18
20

Expeditions Unlimited Aquatic Enterprises, Inc., v. Smithsonian Institute, (CADC1974) 500 F.2d
808

20

FDCI v. Alker, (CA. 3d, 1956) 234 F.2d 113

20

Fidelity Deposit Co. ofMd. v. Usaform Flail Pool Inc., (CA5th 1975), 523 F.2d 744

20

Giasson Aerospace Science Inc. v. RCO Engineering Inc., 872 F.3d 336 (6th Cir. 2017)

17

ix
f

Greater-Boston Television Corp. v. FCC., 463 F.2d 268 (D.C. Cir. 1971)

14

Greater Coastal Express Inc., v. Int'l Bhd. Of Teamsters, 675 F. 2d 1349 (4th Cir. 1982)

17

Mitchell v. Rees, 651 F.3d 593 (6th Cir. 2011)

18

Neitzke v. Williams, 490 U.S. 319 (1989)

11,12, 13

Turner v. Pleasant RPIA., 663 F.3d 770 (5th Cir. 2011)

17

United States v. Beggerly, 524 U.S. 38 (1998)

1,13,15

Waldman v. Village of Kiryas Joel, 207 F.3d 105 (2d Cir. 2000)

14

Winfield Associates Inc., v. W.L. Stonecipher, 429 F.2d 1087 (10 Cir. 1970)

16

RULES
Federal Rules of Civil Procedure Rule: 60 (b)
Federal Rule of Civil Procedure Rule 60 (d)(1)
Federal Rules of Civil Procedure Rule: 12 (b)(6)

20
1,11, 12, 13, 14,17, 19
1,11, 13,18, 19

CONSTITUTIONAL PROVISIONS
Fifth Amendment

2,18-19

Fourteenth Amendment

2,18-19

STATUTES

X

•*t »
4 2 -U. S ..G-S.e.ction 1983

28 U.S.C. section 1915(d)

1,
21

OTHER AUTHORITIES
Erwin Chemerinsky, Constitutional Law: Principles and Policies (1997)

19

7j. Moore Federal Practice 60.37[1]

15

Wright & Miller, 11 Federal Practice & Procedure, (3d ed.), (April 2021 update)

13

1

OPINIONS BELOW

The opinion of the Second Circuit Court of Appeals appears at Appendix A the opinion is
unpublished. The opinion of the United States District Court for Connecticut Appears at
Appendix B the opinion is unpublished

JURISDICTION

The Second Circuit Court of Appeals issued its opinion on April 27, 2021 and a copy of decision
appears at Appendix A. Petitioners timely Motion for panel reconsideration and
reconsideration en banc was denied on June 2, 2021 and a copy of the order denying
reconsideration and reconsideration en banc appears at Appendix C. The jurisdiction of this
court is properly invoked pursuant to 28 U.S.C. section 1254(1)

STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED

42 U.S.C. section 1983 provides:

Civil Action for Deprivation of rights: Every person who, under color of any statute, ordinance
regulation, custom, or usage of any State or Territory or the District of Columbia, subjects or
causes to be subjected, any citizen of the United States or other persons within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the Constitution
and laws, shall be liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought against a judicial officer for an act or

2

omission taken in suchjjfficer's judicial capacity injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was unavailable. For the purposes of this
section, any Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.

Amendment 5 provides: No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except In cases arising in the land
or naval forces or in the militia, when in actual service in time of war or public danger, nor shall
any person be subject for the same offense to be twice put in jeopardy of life or limb, nor shall
be compelled in any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law, nor shall private property be taken for public
use, without just compensation.

Amendment 14, Section 1. provides: All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United States and of the state wherein
they reside. No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States: nor shall any state deprive any person of life,
liberty, or property, without due process of law, nor deny to any person within its jurisdiction
the equal protection of the laws.

*.

3
STATEMENT OF THE CASE

In 1984 the petitioner here began employment with the Connecticut Department of
Corrections (hereinafter referred to as DOC ). The appellant was a stellar employee with
an outstanding work record and all good evaluations. In March of 2001 the appellant
was terminated from his employment with DOC, the reason as stated by DOC for the
petitioner's termination was: (disciplinary action against the petitioner for two arrest for
off-duty conduct), the petitioner was arrested twice within a 60 day time period related
to the same underlying circumstances, the petitioner had a dispute and argument with
his girlfriend, ultimately all of the arrest charges against the appellant were dismissed in
Connecticut State Court. In March 2004 the petitioner by his Attorney, filed a lawsuit
Everson v. Lantz, et al.. 3:04cv387 (RNC) in Connecticut District Court against DOC,
under Title 42 U.S.C. section 1983 alleging his termination by DOC violated the
petitioner's Constitutional Rights, and the petitioner's lawsuit cited among other things
that numerous other DOC employees were arrested for comparable conduct and
charged with comparable charges and were similarly situated and comparable to the
petitioner inthat those individuals "the plaintiffs' named comparators" were all subject
to the same workplace rules, regulations, policies and disciplinary standards and the
lawsuit further alleged that those same similarly situated individuals "named
comparators" had violated the same rules that DOC alleged that the petitioner had

4
violated, but DOC did not discipline those named comparators, and those named
comparators were not terminated by DOC and were allowed to continue working
and/or return to work after their arrest, and all of those named comparators were
outside of the petitioner's protected class, "the petitioner is African American and all of
those similarly situation comparators were not African American." The case was
dismissed in February 2009 by the District Court after two separate summary
judgments.
In March 2009 the petitioner filed a timely appeal of the District Court's decision with
the Second Circuit Court of Appeals see Everson v. Lantz, Comm'r of Corrections, case
No. 09-0903cv the petitioner was incarcerated at the time he filed his appeal, the
petitioner was incarcerated from May 2008 until April 2012 fora matter unrelated to
the termination or the lawsuit, the petitioner's appeal cited that among other things: at
summary judgment the plaintiff/petitioner's admissible evidence i.e. "the names of his
similarly situated comparators" were excluded and/or omitted from the examination
analysis of the February 2009 ruling and order/final judgment "case doc #131" for
summary judgment, that is to say that in the petitioner's motion for summary judgment
"case doc's # 121,123 and 124, the petitioner listed the names of his twenty eight
similarly situated named comparators, but the February 2009 ruling and order in error
did not examine or mention any of the plaintiff/petitioner's named comparators, the

5
ruling and order" doc # 131" examined and mentions a list of names provided from the
defendant's motion for summary judgment and in error "by accident or mistake"
identifies and refers to the defendant's evidence l.e. names of individuals provided by
the defendant, as being the plaintiff's named comparators, and attributes the facts and
circumstances of the defendant's named individuals as being the same facts and
circumstances as the plaintiff's named comparators, whereas the facts and
circumstances of the defendant's named individuals were completely different than the
facts and circumstances of the plaintiff's named comparators, the plaintiff/petitioner's
named comparators appear to have been overlooked or disregarded and omitted from
the summary judgment process/examination and analysis for an unknown reason.
While the petitioner was incarcerated "during the time of his appeal" he was not
receiving his legal mail, prison/DOC officials were withholding the petitioner's legal mail,
specifically, several notices sent to the petitioner from the Court of Appeals were not
delivered to the petitioner, because the petitioner was not receiving his legal mail the
petitioner was "effectively unable to protect his appeal and unable to monitor his
appeal", this resulted in the petitioner missing important filings and missing important
court imposed deadlines. The petitioner's appeal was dismissed on June 9, 2009 after
the petitioner failed to respond to two notices sent to him from the Court of Appeals,
both notices instructed the petitioner to complete and return to the court an enclosed

6
"in forma pauperis motion" forms for New York State, the petitioner did submit with his
notice of appeal, an approved Connecticut "in forma pauperis motion" granted by the
Connecticut District Court "case doc # 140". The petitioner was not aware that his
appeal was dismissed, because legal mail was not being delivered to the petitioner. The
petitioner learned that his appeal had been dismissed 3 weeks after the time period to
serve and file a motion for reconsideration with the district court had expired, the
petitioner learned his appeal had been dismissed when he received a "bill of cost, case
doc# 142" from the defendant's attorney. The petitioner immediately filed a motion
requesting to have the case reopened, and requesting a recall of the mandate both
were denied. For the remainder of the petitioner's incarceration his legal mail was
often withheld or delayed. The petitioner filed Writ of Certiorari with the United States
Supreme Court, that was denied "as filed untimely", the untimeliness was attributed to
ongoing delays of the petitioner's incoming mail, the petitioner filed a request for
rehearing, that was denied, the petitioner filed an Extraordinary Writ, in late 2011 it was
denied.
On or about April 3, 2012 the appellant was released from his incarceration, on or about
the same day as the petitioner's release from incarceration the petitioner met with an
Attorney "Paul Reynolds of Wallingford CT", Attorney Reynolds agreed to represent the
appellant in his wrongful termination case against DOC. The petitioner relied on his

7
attorney's representation from April 2012 until October 2015, during that time the
petitioner was unaware that his attorney was suffering with serious and debilitating
health problems that hindered the attorney's ability to work on the petitioner's case;
during that time period the petitioner made ongoing and frequent inquiries with his
Attorney has to the status and any progress of his wrongful termination case, on every
communication the petitioner's Attorney assured the petitioner that the wrongful
termination case was being properly handled and going well, and, "illness caused" the
attorney to almost completely neglect the petitioners business "wrongful termination
case", while at the same time the attorney was reassuring the petitioner that the matter
was in hand. On or about October 27, 2015 the petition's Attorney passed away, a few
days before his attorney passed away the petitioner spoke by telephone to his attorney,
during that telephone conversation the petitioner's attorney told the petitioner that he
"the attorney" would be entering the hospital for a few days for some procedures and
after his release from hospital he would be able to do a much better job on handling the
petitioner's wrongful termination case, during that conversation the petitioner's
attorney told the petitioner that he "the attorney" had for some time, been suffering
with serious and debilitating health problems and those health problems had been
slowing him down and hindering him and effecting his ability to work on the petitioner's
case, but while in hospital he would have procedures that would help him get better
"improve his health" and he would be able to work better, the petitioner's attorney

8
passed away while in hospital, his death was caused by those same health problems.
After the sudden and unexpected death of his attorney the petitioner was upset, and
disorientated about the death of his attorney, as a result of his attorney's death the
petitioner was experiencing anxiety and emotional turmoil, the petitioner spoke with his
attorney's office about the death and about the case and the office notified and
instructed the petitioner that soon the court would authorize the release of his files
from the office and he could pick up his files. After the death of his attorney the
petitioner has actively pursued his legal judicial remedies; in January of 2016 the
appellant filed a new action "pro se" in the district court as mandamus see Everson v.
Semple, Comm'r of Correction, Docket No. 3:16-cv-77 (RNC) Connecticut District Court,
the petitioner intended the mandamus to be given the same docket number as the first
case 3:04-cv-387(RNC), citing Title 28 U.S. Code section 1651(a) all writs act to address
and set aside and vacate the final judgment in the case, the petitioner also requested an
attorney be appointed, the court assigned the new action a new docket number, the
new action was dismissed citing "res judicata", and the request for an attorney was
denied, the petitioner appealed the trial court's decision see Everson v. Semple, Docket
No. 16-3381cv Second Circuit Court of Appeals, the court of appeals upheld the trial
court's decision, the petitioner filed a Writ of Certiorari that was denied on April 16
2018 , the petitioner filed a petition for rehearing that was denied on June 11, 2018. On
July 27 2018 the appellant/petitioner filed a Motion for Relief from a Final Judgment

9
and Order pursuant to Federal Rules of Civil Procedure Rule 60 (b)(6) under the first,
original docket number, 3:04 cv-387(RNC) that motion was denied, the petitioner
appealed the decision of the trial court the Court of Appeals upheld the trial court's
decision citing; Appeal "lacks an arguable basis In law or fact", the petitioner filed a
motion for panel reconsideration and reconsideration En banc, that was denied; the
petitioner filed a Petition for Writ of Certiorari with this court it was denied. The
petitioner filed a Petition for Rehearing that was denied.
The petitioner then filed two separate Independent Actions, on April 6, 2020 the
petitioner filed an Independent Action pursuant to Federal Rules of Civil Procedure Rule
60 (d)(1) under Case: Everson v. Lantz. No 3:04cv387(RNC) "doc #169" that Independent
Action was docketed as a Motion to vacate the final Judgment and was denied on
January 6, 2021 see order "doc #172 and 174", the petitioner filed a notice of appeal on
February 4, 2021 and that appeal Everson v. Lantz. Comm'r of Correction Case No. 21228 (2d Cir.) was dismissed on July 14, 2021 the Appeals court cited: appeal "lacks an
arguable basis in law and in facts", and on July 28, 2021 the petitioner filed a Motion for
reconsideration and reconsideration en banc and also included in that motion a request
to "recall the mandate" in the original appeal case number 09-0903cv (2d Cir.), and the
petitioner also filed an identical Independent Action, pursuant to Federal Rules of Civil
Procedure Rule 60(d)(1), that was docketed as a new action Everson v. Lantz. No.

10
3:20cv885(AVC) "doc #1" and that Independent action was dismissed on November 30,
2020 "doc #17" the petitioner filed a notice of appeal on January 4, 2021, that appeal
Everson v. Lantz, No. 21-17 (2d Cir.) was dismissed on April 17 2021 the appeals court
cited: appeal "lacks an arguable basis in law and in facts", the petitioner filed a motion
for reconsideration and reconsideration en banc the motion was denied on June 2 2021,
the petitioner herein now Petitions for a Writ of Certiorai with this court.

11
REASONS TO GRANT THE PETITION
There are opposing positions and conflicting decisions held within the circuit courts, on the
issues of: the correct application of the doctrine of "res judicata" to an independent action in
equity filed pursuant to Federal Rules of Civil Procedure Rule 60 (d)(1) and this is conjoined with
the application of Federal Rules of: Civil Procedure, Rule 12 (b)(6) "frivolous standard" of
"failure to state a claim upon which relief can be granted", and "lacks an arguable basis in law
or in fact" of Neiztke v. Williams, 490 U.S. 319 at 325 (1989), as it specifically applies to cases
where a litigant files an independent action in equity, with the district court pursuant to Rule 60
(d)(1), seeking "relief from a final judgment or proceeding"; and whether or not and under what
circumstances the doctrine of "res judicata" applies to the Rule 60(d)(1) independent action in
equity and should the independent action be construed as frivolous under Neiztke's standard,
based on the preclusive effect of the doctrine of "res judicata."; and 2. There is no
straightforward guidance as to the correct procedural method for filing an independent action
in equity pursuant to Federal Rules of Civil Procedure, Rule 60 (d) (1); "that is to say": whether
an independent action should be correctly filed under the original docket number of the prior
lawsuit as akin to a motion to vacate the final judgment, or should an independent action be
correctly filed as a completely new action or new lawsuit and with a new docket number. The
correct interpretation of the law on deciding both of these issues for an independent action in
equity filed pursuant to Rule 60 (d) (1) is frustrated in both the district courts and in the circuit
courts of appeals "on if" and when the "frivolous" standard "lacks an arguable basis in law or in
facts" under Neiztke v. Williams, 490 U.S. 319 at 325 (1989) is applicable to the independent

12
action, based on the preclusive effect of res judicata, and if the Rule 60 (d)(1) independent
action is filed incorrectly "as a new action with a new docket number" "intended to be a direct
attack upon the judgment" then the frivolous standard of "lacks an arguable basis in law or in
facts" may be applicable under Neiztke at 325 because of the preclusive effect of "res judicata".
This lack of clarity creates uncertainty and contributes to judicial inefficiency, whereas a
straightforward answer on the correct procedural filing method of an independent action in
equity under Rule 60 (d)(1) would prevent unnecessary filings and subsequent refilings of Rule
60 (d)(1) independent actions in equity by litigants seeking to avoid the preclusive effects of the
doctrine of res judicata. Additionally, the two different approaches in the circuit courts on the
doctrine of "res judicata" contradict and conflict with each other; and having a correct answer
on the proper method of filing an independent action in equity would promote judicial
efficiency. This necessitates the guidance of the Supreme Court.
For both answers to: "the correct application of res judicata, conjoined with "fails to state a
claim on which relief may be granted", i.e., "lacks an arguable basis in law or fact' to an
independent action in equity"; and "the correct procedural method of filing an independent
action under Federal Rules of Civil Procedure Rule 60 (d)(1);" and should be made clear moving
forward; that lack of clarity has frustrated the basic issue of "a litigant filing a document
pursuant to Rule 60 (d)(1) in the trial court; and also regarding the interpretation of the law on
deciding independent actions in equity pursuant to Rule 60 (d) (1), there is a recognized
uncertainty on which approach reflects the correct interpretation of the governing law
regarding both of these issues. The court should grant certiorari in this case to resolve both

13
conflicts. The questions present are important as preserving the substantive right of due
process may be at issue and this uncertainty in the judiciary recurs periodically.

Previous decisions in this court have provided the basis for the court's jurisdiction to allow the
independent action in equity to proceed and addressed the issue of under what a set of facts
and circumstances present the instance of "grave miscarriage of justice" of United States v.
Beggerly; 524 U.S. 38 at 47 (1998); in which an independent action in equity is applicable and
can be granted as a judicial remedy to a litigant seeking to have a final judgment set aside
under Rule 60 (d)(1), this instant case focuses on asking the court to provide guidance on the
correct application of "res judicata" to a Rule 60 (d)(1) independent action in equity and
specifically, if, and when, an independent action is frivolous under Rule 12 (b)(6) and Neiztke at
325, "lacks an arguable basis in law and in fact". See Wright & Miller, section 2868 independent
action for relief, 11 Federal Practice 8c Procedure, Civil section 2868 (3d ed.),(April 2021 update)
n.7-8 "The Supreme Court.... In United States v. Beggerly, a 1998 action, when it held that the
remedy is only available to prevent a grave miscarriage ofjustice;...Independent actions must: if
Rule 60 (b) in to be interpreted as a coherent whole, be reserved for those cases of "injustices
which, in certain instances, are deemed sufficiently gross to demand a departure" from rigid
adherence to the doctrine of "res judicata." The Second Circuit has held: the preclusive effect of
the doctrine of Res judicata bar an Independent action in equity filed as a new action with a
new docket number in the district court pursuant to Rule 60 (d)(1) and apply "lacks an arguable
basis in law or in facts" under Neiztke at 325 and "holding', "if" the Independent action involves
the same transaction or "common nucleus of operative of facts" as the prior original action and

14
require considerations of the claims forming the basis of the court's prior decision, previously
litigated in the first action, See AmBase Corp. v. City Investing Liquidating Trust, 326 F.3d 63, 73
(2d Cir 2003) and Waldman v. Village ofKiryas Joel, 207 F.3d 105,108 (2d Cir. 2000); and any
appeal of a judgment dismissing an independent action in the district court under "res judicata"
can be dismissed by summary affirmance of the district court's decision by the appellate court
"in place of a full merits briefing" in the appellate court without any development of the facts
of the case as "res judicata" bars the independent action); also the Second Circuit holds a
"three requirement" approach, in granting any independent action, see Campaniello Imports,
Ltd. v. Saporiti Italia S.p.A., 117 F.3d 655 at 662 (1997) "claimants seeking equitable relief
through independent actions must meet three requirements: claimants must, 1. Show that they
have no other available or adequate remedy, 2. Demonstrate that the movant's own fault,
neglect or carelessness did not create the situation for which they seek equitable relief, and 3.
Establish a recognized ground such as fraud, accident or mistake... for the equitable relief." The
D.C. Circuit has adopted the approach with expressed "well recognized" uncertainty that to
correctly allow the district court to hear or grant a Rule 60 (d) (1) independent action the
appellate court needs to recall the mandate. The D.C circuit held in Greater Boston Television
Corp. v. FCC., 463 F.2d 268 at 279 (D.C. Cir. 1971) quoting, (with well recognized uncertainty an
independent action is available to avoid an unconscionable injustice and requires the recall of
the mandate by the appellate court) quoting Greater Boston Television Corp. at 279
"Historically there was an "independent" equity action to restrain enforcement of a judgment
to avoid an unconscionable injustice, "fraud on the court" being the best known but not the

15
exclusive ground for relief; Rule 60 expressly provides that it does not eliminate an
"independent" action in the district court either "to set aside a judgment for fraud upon the
court" or "to relieve a party from a judgment" on other grounds. 7J. Moore, Federal Practice
60.36 et seq. it is not clear whether the concept of an independent action is strictly limited to
"extrinsic fraud," as was often said, but it is clear that the exception for equitable interposition
by independent suit rests on "stringent" rules limited to circumstance "which render it
manifestly unconscionable that a judgment be given effect." 7J. Moore Federal Practice
60.37[1], p. 623. if a case involves the kind of injustice that would support an independent suit
in the trial court, but presents an instance where action is needed from the appellate court,
which cannot entertain a new "independent" action, the remedy of recall of mandate may well
be appropriate." Other Circuits hold a different approach than the Second Circuit, to an
independent action in equity which focus more on the equitability of the independent action
and in determining if Beggerly at 47 "grave miscarriage of justice" is present, and identify five
elements a claimant seeking relief through an independent action equity must show; adding
two additional elements not included in the Second Circuit three prong approach, the two
additional elements being: (1) a prior judgment "which in equity and good conscience" should
not be enforced and (2) a meritorious claim in the underlying case, this "five element" approach
also necessitates a full development of the facts of both the prior action and the new
independent action in equity together and require full consideration of the claims forming the
basis for the court's prior decision to determine if there was a meritorious claim in the
underlying case and if the prior judgement in "equity and good conscience" should not be

16
enforced, this approach conflicts with the approach in the Second Circuit, "as it necessitates
consideration and examination of the original lawsuit, and the doctrine of "res judicata" must
yield to a well plead "independent action in equity" which reveals a "grave miscarriage of
justice" does exist; whereas, in the Second Circuit the same consideration and examination of
the original lawsuit would bar the Independent action under the doctrine of "res judicata"
conjoined with applying the frivolous standard of "lacks an arguable basis in law or in facts";
and this "five element" approach of requiring "consideration of the claims forming the basis for
the court's prior judgment" is followed in the Forth, Fifth and Sixth circuits and The Tenth
Circuit holds to the three requirements approach same as the Second Circuit, but the Tenth
Circuit allows the Independent action as a "motion to vacate the judgment, under the prior
lawsuit" and with the original docket number and does not preclude the Independent action in
equity under the doctrine of "res judicata" and allows a full evidentiary hearing, where the
claimant is permitted to present evidence on every ground asserted and for consideration of
the claims forming the basis for the court's prior judgment See Winfield Associates Inc. v. W.L.
Stonecipher, 429 F.2d 1087 at 1090 (10th Cir. 1970). The five element approach creates an
entirely different species of decisions that allow the prior underlying case to receive a full
examination. The Forth circuit in Asterbadi v. Leitess, 176 Fed.Appx. 426 at 430 (4th Cir. 2006)
"in order to sustain in independent action in equity....the five factors set forth are: 1 the
judgment in ought not, "in equity and good conscience" be enforced; 2 he had a good defense
to the allege cause of action, underlying the judgment; 3 that fraud, accident or mistake
prevented him from obtaining the benefit of his defense; 4 "the absence of fault or negligence"

17
on his part; and 5 the absence of any adequate remedy at law", see Great Coastal Express Inc.,
v. Int'l Bhd. of Teamsters, 675 F. 2d 1349 at 1358 (4th Cir. 1982). The Fifth Circuit has held under
the "five element approach" that "res judicata" and Rule 12 (b)(6)'s frivolous "lacks an arguable
basis in law or in facts" is not applied to an independent action filed pursuant to Rule 60 (d)(1)
without first conducting a comprehensive development of the facts and circumstances and a
Rule 60 (d) (1) independent action will be granted if: (The plaintiff presents facts indicating that
the issues raised in the independent action were not open to litigation in the former action or
that he was denied a fair opportunity to make his claim or defense in the original lawsuit) see
Turner v. Pleasant RPIA., 663 F.3d 770 at 775 (5th Cir. 2011) "Res judicata at times must yield to
a well pled independent action in equity, the Federal Rules preserved the court's power to hear
an independent action to grant relief from a judgment, In our analysis, we identified five
elements of an independent action in equity, Turner at 776 (citing Addington v. Farmer's
Elevator Mut. Ins. Co., 650 F.2d 663 at 667-68 (5th Cir. 1981)) 1 a prior judgment which in
"equity and good conscience" should not be enforced, 2 a meritorious claim in the underlying
case, 3 Fraud, accident or mistake which prevented the party from obtaining the benefit of
their claim, 4 the absence of fault or negligence on the part of the party, and 5 the absence of
an adequate remedy at law." The Sixth Circuit in: See Giasson Aerospace Science Inc. v. RCO
Engineering Inc. 872 F. 3d 336 (6th Cir. 2017) follows the five element approach, see Giasson
Aerspace Science Inc., at 339 "such an independent action is available only under unusual and
exceptional circumstances to prevent a "grave miscarriage ofjustice"; Relief is reserves for those
cases of injustices which in certain instances, are deemed sufficiently gross to demand a

18
departure from rigid adherence to the doctrine of res judicata.", citing Mitchell v. Rees, 651 F.3d
593 at 595 (6th Cir. 2011) "the indisputable elements of an Independent action are: 1 a
judgement which, ought not, in equity and good conscience, to be enforced; 2. A good defense
to the allege cause of action on which the judgment is founded; 3. Fraud, accident or mistake
which prevented the defendant in the judgment from obtaining the benefit of his defense; 4. The
absence offault or negligence on the part of the defendant, and 5, the absence of any adequate
remedy at law." The two different approaches "fora litigant seeking relief from a judgment" ,
mean the difference of whether the Independent action in equity would be heard by the court
or not, under the five element approach the litigant will have an opportunity to be heard In
court, but under the approach that applies "res judicata' conjoined with Rule 12 (b) (6) frivolous
"lacks an arguable basis in law or in facts" if the independent action requires consideration of
the underlying prior case, the litigant's independent action in equity will never be heard, and
the litigant's right to appeal the decision is also taken away, under this approach the litigant is
"effectively shutout of court" and the determination of whether or not a "grave miscarriage of
justice' was present will not be made.

The questions presented are important, "Substantive right of Due Process" at issue here
The questions present are important, because the substantive right of due process may be at
issue and the court should make that determination. This court said in Christopher v. Harbury,
536 U.S. 403 at 415 n. 12 (2002) "Recognition that the right to access the courts is ancillary to
the underlying claim a plaintiff cannot be shutout of court", "right of access to court is

19
grounded in the 5th and 14th amendment Due Process clause"; also This Court said in Boddie v.
Connecticut, 401 U.S. 371 at 377, (1971) "Due Process at a minimum requires, persons forced to
settle their claims of right and duty through the judicial process, must be given a meaningful
opportunity to be heard" and Boddie at 383-84, "access to the courts is a Substantive Right
under the Due Process Clause", also see Erwin Chemerinsky, Constitutional Law: Principles and
Policies 419-420 (1997) "Right of access is grounded in 5th and 14th Amendments, Right to Due
Process." If the doctrine of'res judicata' is conjoined with the Rule 12 (b)(6) "Frivolous"
standard "lacks an arguable basis in law or in facts" is being incorrectly applied to Independent
actions in equity, filed pursuant to Rule 60 (d)(1) in the district court and the Rule 60 (d)(1)
actions are being dismissed in the district court, without a hearing or any consideration of the
matter and the subsequent appeals of those decisions are not being allow to be heard, by
dismissing those appeals by summary affirmance of the district courts decisions, then litigants
are being incorrectly shutout of court and that would "effectively be a violation of the litigant's
substantive right to due process"; and if that were to continue as a common practice in the
judiciary, this would necessitate the guidance of this court to determine if, in fact, that is
occurring. In most instances the litigant has already made a "Prima facia case" in the
underlying claim, under the correct legal standard. As the intended purpose of the Rule 60
(d)(1) independent action in equity is to prevent a "grave miscarriage of justice", the questions
presented in this petition are worthy of being answered for the sake of maintaining and
securing our substantive rights and not allowing "grave miscarriages of justice' to go

i>

20
unanswered. Our Democracy depends on our maintaining and securing the fundamental and
substantive rights of our citizenry.

Other Circuits treatment of motions to vacate a final judgment under Rule 60 (b): Buckeye
Cellulose Corp v. Braggs Electric Construction Co., (CA8th, 1975), 569 F.2d 1036 "no notice was
sent to parties, ordered the judgment vacated and re-entered to preserve plaintiff's appeal";
Clarke v. Burkle, 570 F.2d [824] at 831-832 (8th Cir. 1978) at 831(six year delay not
unreasonable), at 832 "to have held the hearing would have consumed little time and effort,
and In ruling upon the motion and amendments the district court would have had the benefit
of all of the facts, and we would have had the benefit of those facts in reviewing the action of
the trial court in failing to hold a hearing legally amounted to abuse of discretion, and we think
that a hearing must now be held by the district court." Fidelity Deposit Co. ofMd. v. Usaform
Flail Pool Inc. (CA5th 1975), 523 F.2d 744, "the trial court properly vacated and re-entered
judgment under Rule 60(b)(6) so timely, appeal could be taken"; and Expeditions Unlimited
Aquatic Enterprises, Inc. v. Smithsonian Institute, (CADC1974) 500 F.2d 808, "ordered to vacate
and re-enter judgment in order to preserve right of appeal"; and, FDIC v. Alker, (CA. 3d, 1956)
234 F.2d 113 ( abuse of discretion where no hearing was conducted); and Boughner v. Secretary
ofH.E.W. (CA, 3d 1978) 572 F.2d 976; Held,(abuse of discretion there was no assessment of the
circumstance).

Other Circuit in addressing the "frivolous" standard, "fails to state a claim on which relief can be
granted", l.e. "lacks an arguable basis in law or fact." The 7th circuit, In Castillo v. Cook County

J

21
Mail Room Dept., 990f.2d 304, 306, (7th Cir. 1993) "We reverse and remand with instructions - —
that counsel be appointed for Castillo", "An "arguable basis in law" is a very low standard to
meet", Castillo at 306 the Th Circuit court of appeals specifically discusses that the district court
in deciding Castillo relied on the approach of the 2nd Circuit in deciding the case; and the 7th
Circuit indicates that by the district court using that approach in applying 1915 (d) "fails to state
a claim upon which relief can be granted", "no arguable basis in law or fact", and in regards to
the case before them and in reviewing the 2nd Circuit's approach in which the district court
relied upon in deciding the case before them, quoting the 7th Circuit, Castillo at 306, "we
cannot, nor can anyone" make a determination", "a fact finder faced with this meager record
has no way to determine."
The two different approaches in both of these legal doctrines yield two substantively and
materially different outcomes depending upon the opposing interpretations. Moreover, these
two issues in which the Circuit Courts are in conflict over and contradicting each other are not
merely hypothetical federal court puzzles, they can arise in every case where a litigant files an
independent action in equity, to access the courts to exercise his or her constitutional rights
and to protect his or her civil rights and it can continue to arise until it is resolved by this Court.

22

CONCLUSION
The petition for Writ of Certiorari should be granted.

Respectfully submitted,

Christopher Everson,
Date:

I

